Supreme Court, U.S.
FILED

JUL 0 6 2020

~4|

No.

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

WARREN WEXLER, PETITIONER

V.
UNITED STATES OF AMERICA

ON PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

WARREN WEXLER
Petitioner, Pro Se
7877 E. Mississippi Ave, #507
Denver, CO 80247

(26^) 701-1116
4
warren_w2013@yahoo.com

RECEIVED
JUL 14 2020
§UPRFMEFCOURTLulsK

r

•a

I

I. QUESTION PRESENTED FOR REVIEW
Whether it is within the OWCP’S (Office of Workers’ Compensation Programs)
discretion to not request a periodic report from the AP (attending physician) but to
instead obtain a periodic report by scheduling a second opinion evaluation.

i?

ii

II. TABLE OF CONTENTS
I. QUESTION PRESENTED FOR REVIEW
ii

II. TABLE OF CONTENTS
III. INDEX OF APPENDICES
IV. AUTHORITIES
V. PARTIES TO THE PROCEEDINGS

iii

iv - vii
1

VI. JURISDICTION OF THE SUPREME COURT
OF THE UNITED STATES

1

VII. STATEMENT

2

VIII. REASONS FOR GRANTING THE WRIT

3

IX. CONCLUSION

3

iii

III. INDEX TO APPENDICES
APPENDIX A: [10748377] Order filed by Judges Matheson, Kelly and Eid denying
petition for rehearing and rehearing en banc filed by Appellant Warren Wexler. [191436] [Entered: 06/18/2020 01:00 PM]
APPENDIX B: [10735477] Affirmed; Terminated on the merits after submissions without
oral hearing; Written, signed, unpublished; Judges Matheson, Kelly, authoring, and Eid.
Mandate to issue. [19-1436] [Entered: 04/24/2020 09:18 AM]
APPENDIX C: ORDER Denying 52 Plaintiff Warren Wexler's Motion to Reconsider, by
Judge Christine M. Arguello on 11/4/2019. (evana,) [D.C. No. 1:18-CV-02378-CMASTV] (Entered: 11/05/2019)
APPENDIX D: Order Adopting 27 The Recommendation of United States Magistrate
Judge Scott T. Varholak. OVERRULING 30 Plaintiffs Objection to the
Recommendation; GRANTING 10 Defendant United States' Motion to Dismiss;
DISMISSING WITHOUT PREJUDICE 1 Plaintiffs Complaint. SO ORDERED by Judge
Christine M. Arguello on 8/6/2019. (swest) [D.C. No. 1:18-CV-02378-CMA-STV]
(Entered: 08/06/2019)

iv

IV. AUTHORITIES
(These authorities are found in Appellate Record documents and Appeals Court filings
e.g., [10745107] Petition for rehearing/rehearing en banc filed by Warren Wexler.
Served on 06/03/2020. Manner of Service: US mail. [19-1436] [Entered: 06/04/2020
12:31 PM], which is where the following are copied from. They show the fact that it is
not within the OWCP’S discretion to not request a periodic report from the AP but to
instead obtain a periodic report by scheduling a second opinion evaluation.)
Federal Employees’ Compensation Act (FECA) Procedure Manual (PM)
FECA PM 2-0810.4(A):
“Referee Specialist. Where the medical reports from the claimant [from
claimant’s Attending Physician (AP)] and the medical reports from the OWCPdesignated physician(s) [second opinion physician(s)] are of equal but opposing
value, 5 U.S.C. 8123(a) of the Act, as interpreted by the ECAB, requires an
examination by a third physician who is termed a referee or impartial specialist.
The referee or impartial specialist examines the claimant, arranges diagnostic
tests, and furnishes rationalized medical opinion to resolve a conflict or
disagreement between a claimant's physician [AP] and a physician designated by
the OWCP (the DMA or a second opinion specialist) where the weight of medical
evidence is equally balanced.”

FECA PM 2-0810.7:
"Requesting Information from the Attending Physician (API. In all cases of
serious injury or disease requiring hospital treatment or prolonged care, the CE should
request detailed narrative reports from the AP at periodic intervals. TheAP 'willbe
asked to describe continuing medical treatment for the condition accepted by
the OWCP, a prognosis, a description of work limitations, ifany, and the
physician's opinion as to the continuing causal relationship between the
employee's condition and factors of his or her Federal employment.' 20 CFR
§10.332

V

"a. The AP will be a primary source of contact for medical updates. At
regular intervals, the AP should provide medical updates addressing the
claimant's current condition and medical status, continuing causal relationship of
the condition to employment, treatment plans, projected healing times, and work
restrictions. Non-receipt of regular updates should usually prompt development
for such information from the CE.
"b. A request for medical information from the AP may be the most efficient and
expeditious means to obtain a medical status update and address any unresolved
medical issues. The CE must ensure, however, that the AP's reply is wellreasoned and responsive to the questions asked. The quality of AP reports will
vary greatly. Sometimes reports are lacking in detail because the physician is
unaware of the type of information required to meet OWCP standards in a given
case. If reports from the AP lack needed details and opinion, or if the subjective
complaints and time loss from work appear inconsistent with the objective
findings and the claimant's diagnosis, the CE can write back to the physician,
clearly state what is needed, and request a supplemental report. Development
for a schedule award may also prompt an inquiry to the AP regarding the extent
of permanent impairment and date of maximum medical improvement.
"A copy of the CE's request to the physician should be sent to the claimant for
informational purposes.
"c. If a Field Nurse (FN1 is involved in the case, the CE may confer with the nurse
regarding specific questions to be asked, and may also ask the nurse to contact
the AP to obtain the necessary information.
"d. The lack ofa well-reasoned or fully responsive reply mav suggest
that a referral to a DMA [District Medical Advisor] for clarification or a
second opinion examination is warranted.
"e. The time allowed for the AP’s reoiv should be carefully monitored. If
the reply is not received within the specified time frame (usually 30-45
days), or if the reply is equivocal, the CE should consider a second
opinion."
(Emphasis in original except for Appellant’s boldfaced italics)
FECAPM 2-0810.9(B)
The CE should refer a claim to a second opinion specialist in the following
circumstances:

VI

(1) The CE has gathered all the medical information and evidence from the AP
and does not have enough evidence about a diagnosis or an adequately
reasoned opinion about causal relationship to accept the case, but does have
sufficient evidence to suggest that the claimant might be entitled to benefits.
(2) The AP's examinations and reports in occupational disease cases do not
provide the specific evidence that the OWCP requires for adjudication. The
primary examples include hearing loss and asbestosis claims requiring
examination in compliance with the specifications outlined in FECA PM 3-0600
or an emotional injury case where a compensable factor of employment is
identified.
(3) Temporary total disability (TTD) has gone on longer than usual in a case, and
the AP is not an appropriate specialist or has not satisfactorily explained the
reason for the continued disability or why the disability is causally related to the
original work injury.
(4) The CE has reason to believe that a claimant is no longer disabled due to the
accepted work injury, or no longer has objective residuals of the accepted injury,
but the AP maintains that the claimant has residuals or disability from the work
injury and does not submit sufficient medical rationale to support that opinion.
(5) The AP cannot or will not send an acceptable permanent impairment
evaluation based on the AMA Guides. If the AP has submitted an examination
report which outlines medical findings and calculates a percentage of impairment
based on the appropriate version of the AMA Guides, the CE should submit the
AP's report to the DMA for the schedule award calculation and forego referring
the claimant to a second opinion specialist for the same purpose.
(6) Following a consult or referral with the DMA, the DMA indicates that the file
does not contain sufficient medical evidence to make a decision on the medical
issue or provide a rating of impairment. In such cases, the DMA may recommend
referring the case to a second opinion specialist.

(Emphasis in original)

VII

Code of Federal Regulations
20 CFR§ 10.332:
“20 CFR § 10.332 What additional medical information will OWCP require to
support continuing payment of benefits?
“In all cases of serious injury or disease, especially those requiring
hospital treatment or prolonged care, OWCP will request detailed
narrative reports from the attending physician at periodic intervals.
The physician will be asked to describe continuing medical treatment for
the condition accepted by OWCP. a prognosis, a description of work
limitations, if any, and the physician's opinion as to the continuing causal
relationship between the employee's condition and factors of his or her
Federal employment.”
(Emphasis in original except for Appellant’s underlined boldfaced type)
NOTE: The rules contained in the Code of Federal Regulations (CFR) are treated by the
Courts as legally binding forms of statutory law. (administrative.laws.com > cfr-citation)

*

1

V. PARTIES TO THE PROCEEDINGS
The caption of the case names all the parties to the proceedings.

VI. JURISDICTION OF THE SUPREME COURT OF THE UNITED STATES
The Order and Judgment of the court of appeals was entered on April 24, 2020. This
petition is filed within 90 days after entry of judgment. See SUP. CT. R. 13.1.
The Court has jurisdiction to grant certiorari under 28 U.S.C. § 1254(1).

2

VII. STATEMENT
(The following statement of facts is taken verbatim from page 2 of [10745107] Petition
for rehearing/rehearing en banc filed by Warren Wexler. Served on 06/03/2020. Manner
of Service: US mail. [19-1436] [Entered: 06/04/2020 12:31 PM]. The boldfaced
numbers in the brackets are the page numbers of referenced documents in the
Appellate Record.)
Appellant, in Section I (“Overview”), of his 1-2 Attachment (Notice of Claim), which he
also states in his 18 Response to 10 Motion to Dismiss for Lack of Jurisdiction [117 —
118] (Appellate Record page numbers), states [14 - 15]:
“On 7/27/15 the claimant received letters from the Denver District Office (the
"Office") [(DDO)] of the Office of Workers' Compensation (OWCP) of DOL
[(Department of Labor)] and from QTC Medical Services informing him that he
had been scheduled for a second opinion (SECOP) evaluation for 8/17/15, 9:30
a.m. (by which the Office would obtain a current medical report on the claimant).
“A current medical report on the claimant is due every three years. As of 7/27/15
the most recent medical report on file was that of the claimant's attending
physician (AP) dated 11/28/11. However, as of 7/27/15 the Office had not sent
the claimant a request to have his AP submit a current medical report. By not
doing so instead of scheduling the SECOP evaluation the Office violated relevant
and pertinent Federal Employees' Compensation Act (FECA) procedures.
regarding the gathering of medical information on a claimant. (SEE: Section II,
below. [[16 -18]] These procedures, taken in part or together, are henceforth
referred to as the "Procedures.")
“Over the period from 7/27/15 [7/28/15] to 8/16/15 the claimant electronically sent
twelve or so letters to the Office [[151,153,156,158,163]] and one to DOL
[[448]] via overnight mail requesting that they cancel the SECOP evaluation and
instead send the claimant a request to have his AP submit a current report, in
accordance with the Procedures. This, however, was to no avail as the Office
twice declined to do so and DOL took no action.”

3

VIII. REASONS FOR GRANTING THE WRIT
1. The U.S. Appeals Court, in its April 24, 2020 Order and Judgment, overlooked a
significant issue - the sole issue of Appellant’s case!
2. The outcome of this appeal is of exceptional public importance. Federal Worker’s
Compensation recipients nationwide are affected by whether OWCP is correctly*'
following the FECA Procedure Manual.
IX. CONCLUSION
BASED ON THE FOREGOING, Petitioner requests that this court issue a writ of
certiorari to review the April 20, 2020 Order and Judgment of the United States Court of
Appeals for the Tenth Circuit.
Petitioner requests that a writ of certiorari be issued to review the Order and
Judgment entered by the United States Court of Appeals for the Tenth Circuit on April
24, 2020.
Respectfully submitted on this 3rd day of July, 2020.

t

1

WARREN WEXLER
Petitioner, Pro Se
7877 E. Mississippi Ave, #507
Denver, CO 80247

(267) 701-1116
warren_w2013@yahoo.com

